IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021

No.

WILLIE M. HARDY, JR.

PETITIONER,
VS
UNITED STATES OF AMERICA,
RESPONDENT.
PROOF OF SERVICE
COMMONWEALTH OF VIRGINIA :
CITY OF ALEXANDRIA :

ALAN H. YAMAMOTO, being first duly sworn, deposes and says:

That on the 7" day of September 2021, I mailed by first-class mail, postage prepaid, an
original and ten copies of the petition for writ of certiorari in the above-captioned case properly
addressed to the Clerk of the Supreme Court of the United States and within the time allowed for
filing said petition for writ of certiorari;

That on the above date, a copy of the petition for writ of certiorari and accompanying
documents were submitted through the Supreme Court’s electronic filing system;

That I mailed by first class postage prepaid an additional copy of the petition and the
statement of proof of mailing of the petition to counsel for respondent:

Solicitor General of the United States,
Department of Justice,
Washington, D.C. 20530.

I certify under penalty of perjury that the foregoing is true and correct, Executed on this 7"

20
day of September 2021.

Ast

Alan H. Yar

Subscribed and Sworn to before me this 7" ue B tobe of September 2021.

Notary “Laud PUA

My commission expires a [ 3s [ ut

EXPIRES
sai. 1131/2022.

 

21
